OIG Investigative Reports, Former State and County Employees Indicted for Theft from Federal Programs
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
US Department of Justice
Gregory R. Miller
United States Attorney
Northern District of Florida
Please reply to Tallahassee:
PRESS RELEASE:
February 21, 2008
For more information contact:
Supervisory AUSA Karen E. Rhew
(850) 942-8430
Former State and County Employees Indicted for Theft from Federal Programs
TALLAHASSEE — Gregory R. Miller, United States Attorney for
the Northern District of Florida, Michael J. Folmar, Special Agent In Charge,
Federal Bureau of Investigation - Jacksonville Division, John P. Higgins, Jr.,
Inspector General of the United States Department of Education, and Alex Sink,
Florida Chief Financial Officer, today announced that a Federal Grand Jury has
returned an Indictment charging the former director of the Institute on Urban
Policy and Commerce (Institute) at the Florida Agricultural and Mechanical University
(FAMU) and the former director of literacy programs in Franklin County, with
mail fraud, theft from Federal programs, and conspiracy to commit those offenses.
In a twenty-one count Indictment, the Federal Grand Jury in Tallahassee charged
Patricia Walker McGill, age 60, of Tallahassee, Florida, and
Bonnie Segree, age 68, of Eastpoint, Florida with one count
of conspiracy to commit theft from Federal programs and mail fraud, seven counts
of theft from Federal programs relating to educational grants, and thirteen
counts of mail fraud.
MCGILL is charged in each of the twenty-one counts of the Indictment, and SEGREE
is charged in eight counts of the Indictment. The Indictment also seeks the
forfeiture of real and personal property fraudulently obtained by the defendants.
The Indictment alleges that:
MCGILL and SEGREE stole, embezzled, misapplied, or converted to their own
use and to the use of others not entitled thereto, funds provided by the United
States Department of Education through the Florida Department of Education
for educational literacy grants.
MCGILL and SEGREE utilized educational literacy grant monies to pay individuals
and entities for goods and services not related to, provided to, or authorized
by the educational grants.
MCGILL and SEGREE fraudulently took, stole, and converted to their own use
grant monies from the 21st Century educational grant in Franklin County claiming
these monies as payment for drafting and submitting the grant application,
despite being advised that no grant monies could be expended or utilized as
payment for individuals for writing the grant application.
MCGILL utilized educational grant monies in Calhoun and Franklin Counties
to pay employees of the Institute, State of Florida employees, for overtime,
bonuses, and other compensation, said monies having no relationship to any
work performed on the educational grants by said Institute employees.
MCGILL required certain educational grant recipients to kick back portions
of the grant monies to the defendants and disguise the monies paid to the
defendants as "consulting" fees for the grants and would require the recipients
to falsely report that the grant monies were earned for work related to the
grants.
MCGILL and SEGREE caused checks totaling more than $125,000 to be issued
to themselves from educational grant monies to which they were not entitled.
MCGILL and SEGREE caused the creation and submission of fraudulent invoices
to grant recipients to obtain payments for goods and services purportedly
related to the educational grants, when in fact the invoices were submitted
to disguise and conceal the fact that the goods and services were provided
to the defendants or were for purposes unrelated to the educational grants.
MCGILL and SEGREE caused checks to be issued from accounts containing educational
grant monies and mailed to themselves and other entities and persons via the
United States Postal Service.
Defendant MCGILL was arrested on the federal charges by federal and state agents
this morning in Tallahassee. Defendant SEGREE was arrested by federal and state
agents this morning in Franklin County. Both defendants will be arraigned today
in the United States District Court in Tallahassee. A date will be scheduled
for trial of both defendants in Panama City before United States District Judge
Richard Smoak.
If convicted on the twenty-one counts of the Indictment, MCGILL faces a maximum
total term of 350 years' imprisonment and total fines of $5,250,000.00. On the
eight counts with which she is charged, SEGREE faces a total maximum term of
140 years' imprisonment, and $2,000,000.00 in fines
This Indictment is the result of an investigation that commenced two years
ago. United States Attorney Miller commended the efforts of investigators of
the agencies involved in this complex investigation. United States Attorney
Miller stated that, "The investigation and prosecution of fraud committed upon
the taxpayers by those who embezzle from federal educational programs is a priority
of the Department of Justice. This office, along with the Federal Bureau of
Investigation, the Inspector General for the Department of Education, and the
Florida Department of Financial Services, will vigorously investigate and prosecute
those who abuse the public trust by stealing and diverting educational grant
monies from the intended recipients."
Special Agent In Charge Michael J. Folmar of the Federal Bureau of Investigation,
Jacksonville Division, stated: "Theft of educational funds and violations of
the public trust, undermine institutions at the heart of our communities. The
FBI continues to prioritize these types of investigations in an effort to eradicate
fraud and waste of our limited taxpayer dollars. On behalf of the FBI, I would
like to thank the United States Attorney’s Office and our law enforcement investigative
partners for the opportunity to assist in safeguarding our vital federal educational
resources."
Department of Education Inspector General John P. Higgins, Jr. stated: "The
Office of Inspector General is committed to ensuring that education dollars
reach the intended recipients. We will continue to work with our colleagues
in the Federal Bureau of Investigation to protect the integrity of federal education
dollars."
An indictment is merely a formal charge that a defendant has committed a violation
of federal criminal law, and every defendant is presumed innocent until, and
unless, proven guilty beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 02/26/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov